gbkh

B. Russ Horton
1100 Norwood Tower I 114 West 7th St I Austin, Tx 78701
512.495.1400 I FAX512.499.0094 I RHorton@gbkh.com I WWW.GBKH.COM

GEORGE BROTHERS
KINCAID & HoRToN LLP

February 4, 2021
Via First Class Mail
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

No. 20-1029; City of Austin, Texas v. Reagan National Advertising of
Austin, Inc., In the Supreme Court of the United States

Dear Mr. Harris:
Petitioner, City of Austin, Texas, filed a petition for writ of certiorari in the
above-captioned matter on January 20, 2021, and the case was placed on the
Court's Docket on January 28, 2021..
Because the case does not warrant a review by this Court, Respondent
Reagan National Advertising of Austin, Inc. (which I represent) and Respondent
Lamar Advantage Outdoor Company, L.P. (which is represented by J. Allen
Smith) hereby waive their right to file briefs in opposition.
If the Court wishes to see a brief in apposition, we will, of course, promptly
file one.
Yours sincerely,
George Brothers Kincaid & Horton, L.L.P.

u re
B. Russ Horton
Counsel for Respondent, Reagan
National Advertising of Austin, Inc..

1

An application for admission to the United States Supreme Court will be submitted.
Board Certified in Civil Trial Law and Personal Injury Trial Law I Texas Board of Legal Specialization

RECEIVED
FEB 19 2021
OFFICE OF THE CLERK
SUPREME COURT L.S. •

George Brothers Kincaid & Horton, L.L.P.
February 4, 2021
Page 2

ec:

Counsel of Record for Petitioner, Via First Class Mail & Electronic Mail:
Renea Hicks, Counsel of Record
Law Office of Max Renea Hicks
P.O. Box 303187
Austin, Texas 78703
rhicks@renea-hicks. corn
Anne L. Morgan, City Attorney
Meghan L. Riley, Chief-Litigation
H. Gray Laird,III, Assistant City Attorney
City of Austin, Law Department
P.O. Box 1546
Austin, Texas 78767
anne.morgan@austintexas.gov
meghan.riley@austintexas.gov
gray.laird@austintexas.gov
Counsel of Record for Respondent Lamar, Via First Class Mail & Electronic
Mail:
J. Allen Smith
Katherine L. Killingsworth
SETTLEPOU
3333 Lee Parkway
8th Floor
Dallas, Texas 75219
asmith@settlepou.corn
kkillingsworth@settlepou.corn

